        ϐ 
    
          ͳͷǡ ʹͲͳ͵
  





       Prepared by the Inspectors General of the:
             
 
            
 

               	 
          	  




             10 APRIL 2014
NOTE: This report is an unclassified summary of a 168-page classified report that was also issued today, 10 April 2014, by the Inspectors General for
the Intelligence Community, Central Intelligence Agency, Department of Justice, and Department of Homeland Security. Redactions in this document
are the result of classification and sensitivity designations we received from agencies and departments that provided information to the OIGs for this
review. As to several of these classification and sensitivity designations, the OIGs disagreed with the bases asserted. We are requesting that the
relevant entities reconsider those designations so that we can unredact those portions and make this information available to the public.

              I.        INTRODUCTION

                     On April 15, 2013, two pressure cooker bombs placed near the finish
              line of the Boston Marathon detonated within seconds of each other, killing
              three and injuring more than two hundred people. Law enforcement
              officials identified brothers Tamerlan and Dzhokhar Tsarnaev as primary
              suspects in the bombings. After an extensive search for the then-
              unidentified suspects, law enforcement officials encountered Tamerlan and
              Dzhokhar Tsarnaev in Watertown, Massachusetts. Tamerlan Tsarnaev was
              shot during the encounter and was pronounced dead shortly thereafter.
              Dzhokhar Tsarnaev, who fled the scene, was apprehended the following day
              and remains in federal custody.

                    A decade earlier, Tamerlan and Dzhokhar Tsarnaev immigrated to the
              United States from Kyrgyzstan with their parents Anzor Tsarnaev and
              Zubeidat Tsarnaeva. Anzor Tsarnaev, an ethnic Chechen, his wife Zubeidat
              Tsarnaeva, and their son Dzhokhar Tsarnaev arrived in the United States
              from Kyrgyzstan in 2002. They applied for and received an immigration
              benefit. The elder son, Tamerlan Tsarnaev, and his sisters, Bella and Ailina
              Tsarnaeva, arrived in the United States in 2003 and also received an
              immigration benefit. In the years that followed, all six family members
              became Lawful Permanent Residents of the United States.

                     Two years before the Boston Marathon bombings, Tamerlan Tsarnaev
              and Zubeidat Tsarnaeva came to the attention of the Federal Bureau of
              Investigation (FBI) based on information received from the Russian Federal
              Security Service (FSB). In March 2011, the FBI received information from
              the FSB alleging that Tamerlan Tsarnaev and Zubeidat Tsarnaeva were
              adherents of radical Islam and that Tamerlan Tsarnaev was preparing to
              travel to Russia to join unspecified underground groups in Dagestan and
              Chechnya. The FBI-led Joint Terrorism Task Force in Boston (Boston JTTF)
              conducted an assessment of Tamerlan Tsarnaev to determine whether he
              posed a threat to national security and closed the assessment three months
              later having found no link or “nexus” to terrorism.

                     In September 2011, the FSB provided the Central Intelligence Agency
              (CIA) information on Tamerlan Tsarnaev that was substantively identical to
              the information the FSB had provided to the FBI in March 2011. In October
              2011, the CIA provided information obtained from the FSB to the the
              National Counterterrorism Center (NCTC) for watchlisting purposes, and to
              the FBI, Department of Homeland Security (DHS), and the Department of
              State for their information. Upon NCTC’s receipt of the information,
              Tamerlan Tsarnaev was added to the terrorist watchlist.

                                                                           1
      Three months later, Tamerlan Tsarnaev traveled to Russia, as the lead
information stated he was preparing to do. However, Tsarnaev’s travel to
Russia did not prompt additional investigative steps to determine whether
he posed a threat to national security.

       By April 19, 2013, after the Tsarnaev brothers were identified as
suspects in the bombings, the FBI reviewed its records and determined that
in early 2011 it had received lead information from the FSB about Tamerlan
Tsarnaev, had conducted an assessment of him, and had closed the
assessment after finding no link or “nexus” to terrorism. In the days that
followed, Members of Congress asked questions of the Director of the FBI,
the Director of National Intelligence (DNI), and other government officials
about the handling of information concerning Tamerlan Tsarnaev prior to
the bombings. The Intelligence Community Inspectors General Forum, with
the support of the DNI, determined that the Inspectors General of the
Intelligence Community, the CIA, the Department of Justice (DOJ), and DHS
would conduct a coordinated review of the handling and sharing of
information available to the U.S. government prior to the Boston Marathon
bombings. The Inspectors General issued a public announcement of a
coordinated, independent review on April 30, 2013.


II.   SCOPE AND METHODOLOGY OF THE REVIEW

      As outlined in a May 21, 2013, memorandum from the participating
Inspectors General, the objectives of this review were to determine:

         •   The extent of the information available to the U.S. government
             concerning the relevant individuals and events preceding the
             Boston Marathon bombings;
         •   Whether the sharing of this information was complete, accurate,
             and in compliance with U.S. counterterrorism and information
             sharing, policies, regulations, and U.S. laws; and
         •   Whether there are weaknesses in protocols and procedures that
             impact the ability to detect potential threats to national
             security.

       In furtherance of these objectives, the Offices of Inspector General
(OIGs) sought to develop a chronology of the events leading up to the
bombings based on information that was known to the U.S. government
prior to April 15, 2013. We also sought to identify what additional
information existed and may have been available to the U.S. government
before the bombings. In considering whether information that existed prior
to the bombings was “available” to the U.S. government, the OIGs took into
account the limited facts known to U.S. government agencies prior to the

                                      2
bombings and the extent of the government’s authority under prevailing
legal standards to access that information. As a result, the scope of this
review included not only information that was in the possession of the U.S.
government prior to the bombings, but also information that existed during
that time and that the federal government reasonably could have been
expected to have known before the bombings.

       While some of the information relevant to our review was developed
after the bombings, the OIGs were mindful of the sensitive nature of the
ongoing criminal investigations and prosecutions related to the bombings,
and were careful to ensure that the review would not interfere with these
activities. We carefully tailored our requests for information and interviews
to focus on information available before the bombings and, where
appropriate, coordinated with the U.S. Attorney’s Office conducting the
prosecution of alleged bomber Dzhokhar Tsarnaev. 1

       We focused our review on the entities that were the most likely to
have had information about Tamerlan Tsarnaev prior to the bombings – the
FBI, the CIA, DHS, and NCTC, which maintains the U.S. government’s
database of classified identifying and substantive derogatory information on
known or suspected terrorists. We also requested other federal agencies to
identify relevant information they may have had prior to the bombings.
These agencies included the Department of Defense (including the National
Security Agency (NSA)), Department of State, Department of the Treasury,
Department of Energy, and the Drug Enforcement Administration.

       The review was conducted by four teams from the OIGs of the DOJ,
CIA, DHS, and the Intelligence Community (IC). The OIGs reviewed
thousands of documents and interviewed more than 160 individuals,
including senior CIA, FBI, DHS, and NCTC officials. While the review teams
shared relevant documents, attended briefings, and participated jointly in
interviews of certain officials, each OIG was responsible for evaluating the
actions of, and information available to, its respective agencies.
Additionally, each OIG conducted or directed its component agencies to
conduct database searches to identify relevant pre-bombing information.

      As described in more detail in the classified report, the DOJ OIG’s
access to certain information was significantly delayed at the outset of the
review by disagreements with FBI officials over whether certain requests fell
outside the scope of the review or could cause harm to the criminal

       1 The initial lead information from the FSB in March 2011 focused on Tamerlan
Tsarnaev, and to a lesser extent his mother Zubeidat Tsarnaeva. Accordingly, the FBI and
other agencies did not investigate Dzhokhar Tsarnaev’s possible nexus to terrorism before
the bombings, and the OIGs did not review what if any investigative steps could have been
taken with respect to Dzhokhar Tsarnaev.


                                            3
investigation. Only after many months of discussions were these issues
resolved, and time that otherwise could have been devoted to completing
this review was instead spent on resolving these matters.


III.   ROLES AND AUTHORITIES OF THE AGENCIES INVOLVED
       IN THE REVIEW

       A.   Executive Order 12333

      The roles and responsibilities of the intelligence elements of the FBI,
DHS, CIA, and NCTC are broadly set forth in Executive Order (E.O.) 12333,
as amended. Originally signed in 1981, and amended several times since,
E.O. 12333 placed restrictions on intelligence collection activities engaged in
by Executive Branch agencies, including the FBI, CIA, and NCTC, while also
seeking to foster “full and free exchange of information” among these
agencies. Among other purposes, E.O. 12333, as amended, is intended to
enhance “the acquisition of significant foreign intelligence, as well as the
detection and countering of international terrorist activities.” To further this
purpose, E.O. 12333 provides the basic jurisdictional framework for the
various roles and responsibilities of the Executive Branch agencies and
departments that comprise the Intelligence Community.

       Under E.O. 12333, the FBI has primary responsibility to “coordinate
the clandestine collection of foreign intelligence collected through human
sources or through human-enabled means and counterintelligence activities
inside the United States.” The CIA has primary responsibility to coordinate
intelligence gathering activities outside the United States. In addition, E.O.
12333 authorizes the NSA to “[c]ollect (including through clandestine
means), process, analyze, produce, and disseminate signals intelligence
information and data for foreign intelligence and counterintelligence
purposes to support national and departmental missions[.]”

       B.   FBI

       The FBI’s domestic operations are governed by the Attorney General
Guidelines for Domestic FBI Operations (AG Guidelines) and implemented
through the FBI’s Domestic Investigations and Operations Guide (DIOG).
The AG Guidelines and the DIOG authorize three levels of investigation to
address a potential threat to national security: (1) an assessment, which
requires an authorized purpose but does not require any particular factual
predication; (2) a preliminary investigation, which requires information or
an allegation of a possible threat to national security; and (3) a full
investigation, which requires an articulable factual basis of a possible threat




                                       4
to national security. 2 The AG Guidelines established these different levels of
investigation to provide FBI personnel with flexibility to adapt the
investigative methods used to the nature of both the matter under
investigation and the information supporting the need for investigation.
This flexibility includes the option of choosing a lower level of investigation,
even when the predication for a higher level of investigation is met, if FBI
personnel determine the matter can be resolved through less intrusive
methods.

      Both the AG Guidelines and the DIOG emphasize the core principles
that FBI investigations must be undertaken for an authorized purpose and
should be carried out by the least intrusive method feasible under the
circumstances of the investigation. According to the DIOG, the threshold
requirement that all investigative activities be conducted for an “authorized
purpose” is a safeguard intended to ensure that FBI employees respect the
Constitutional rights of Americans. Thus, both the AG Guidelines and the
DIOG make clear that no investigation may be conducted for the sole
purpose of monitoring activities protected by the First Amendment or the
lawful exercise of other rights secured by the Constitution or laws of the
United States.

       As the federal government’s lead domestic counterterrorism agency,
the FBI played a critical role in investigating the lead information from the
FSB and determining whether Tamerlan Tsarnaev had a nexus to terrorism
or posed a threat to the national security in 2011, two years prior to the
April 15, 2013, Boston Marathon bombings. This lead information was
investigated by the FBI through the Boston JTTF. Representatives from the
DHS, CIA, and other federal, state, and local agencies work directly with
FBI-led JTTFs across the country, including in Boston.

       C.     CIA

       In addition to E.O. 12333, the National Security Act of 1947, as
amended, governs the ability of the CIA to engage in intelligence activities.
The National Security Act provides the basic statutory authority for the
CIA’s intelligence activities, while prohibiting the Agency from exercising
either law enforcement or domestic security functions. Section 104A of the
Act authorizes the Director of the CIA to provide “overall direction for and
coordination of the collection of national intelligence outside the United


       2  Each level of investigation allows the FBI to use increasingly intrusive
investigative methods. For example, the FBI is limited to relatively unintrusive methods
such as consensual interviews and database checks in an assessment, while it may use
more intrusive methods such as obtaining judicial search warrants and FISA orders to
conduct electronic surveillance in a full investigation.


                                             5
States through human sources by elements of the intelligence community
authorized to undertake such collection.”

       D.       DHS

       The Homeland Security Act of 2002, as amended, created the DHS
and established the Department’s primary mission to prevent terrorist
attacks in the United States and to carry out the functions of the entities
transferred to the Department, which included the Immigration and
Naturalization Service (INS) and the Transportation Security Administration
(TSA). 3 Multiple components within the DHS execute its mission. Those
involved in this review include:

            •   U.S. Citizenship and Immigration Services (USCIS), which
                oversees and adjudicates immigration benefits;
            •   U.S. Customs and Border Protection (CBP), which vets people
                and goods entering and exiting the United States; and
            •   TSA, which secures U.S. transportation systems.

       E.       NCTC

       In 2004, the Intelligence Reform and Terrorism Prevention Act (IRTPA)
codified the establishment of the NCTC as part of the Office of the Director
of National Intelligence. 4 The primary missions of the NCTC that pertain to
this review are to:

            •   Serve as the primary organization of the federal government for
                analyzing and integrating all intelligence possessed or acquired
                pertaining to terrorism or counterterrorism (except intelligence
                pertaining exclusively to domestic terrorists and domestic
                counterterrorism);
            •   Ensure that . . . agencies have access to and receive intelligence
                needed to accomplish their assigned activities; and
            •   Serve as the “central and shared knowledge bank on known and
                suspected terrorists and international terror groups, as well as




       3   See 6 U.S.C. § 203; Transfer of INS functions at 6 U.S.C. §§ 202, 251 et al.
       4  IRTPA of 2004, § 1021 (Pub. L. No. 108-458, 118 Stat. 3672 (Dec. 17, 2004)),
codified at 50 U.S.C. § 3056(a). President Bush initially established NCTC by E.O. 13354,
on August 27, 2004. E.O. 13354 was rescinded by E.O. 13470 in July 2008 because IRTPA
codified the establishment of NCTC.


                                               6
               their goals, strategies, capabilities, and networks of contacts
               and support.” 5

      F.       Memoranda of Understanding

       The federal agencies that handled information concerning relevant
individuals and events prior to the bombings frequently have intersecting
and sometimes overlapping responsibilities in conducting counterterrorism
activities. The relationships between and among these agencies are
governed by memoranda of understanding (MOU). Of particular relevance
to this review are the relationships between the FBI, CIA, and DHS, as well
as the relationship between the FBI and the NSA, and the NCTC’s
relationships throughout the Intelligence Community.


IV.   CHRONOLOGY OF EVENTS

      In this section, we summarize the chronology of events relating to the
U.S. government’s knowledge of and interactions with Tamerlan Tsarnaev,
members of his family, and other associates before the bombings. Many of
the activities and events that occurred during the period discussed below
cannot be included in this unclassified summary.

      Tsarnaev Family Background

      Tamerlan Tsarnaev and Dzhokhar Tsarnaev immigrated to the United
States from Kyrgyzstan with their parents Anzor Tsarnaev and Zubeidat
Tsarnaeva. Anzor Tsarnaev, an ethnic Chechen, his wife Zubeidat
Tsarnaeva, and their son Dzhokhar Tsarnaev arrived in the United States
from Kyrgyzstan in 2002. They applied for and received an immigration
benefit. The elder son, Tamerlan Tsarnaev, and his sisters, Bella and Ailina
Tsarnaeva, arrived in the United States in 2003, and also received an
immigration benefit. In the years that followed, all six family members
became Lawful Permanent Residents (LPRs) of the United States.

      Receipt of Information from the Russian Government

      In 2011, two years before the Boston Marathon bombings, Tamerlan
Tsarnaev and Zubeidat Tsarnaeva came to the attention of the FBI based on
information received from the FSB. In March 2011, the FBI Legal Attaché
(LEGAT) in Moscow received a memorandum in Russian from the FSB
regarding Tamerlan Tsarnaev and Zubeidat Tsarnaeva. According to the
English translation used by the FBI, the memorandum alleged that both
were adherents of radical Islam, and that Tamerlan Tsarnaev was preparing

      5   Summarized from National Security Act of 1947 (P.L. 235), Section 119.


                                            7
to travel to Russia to join unspecified “bandit underground groups” in
Dagestan and Chechnya and had considered changing his last name to
“Tsarni.” The Russian authorities provided personal information about both
Tamerlan Tsarnaev and Zubeidat Tsarnaeva, including their telephone
numbers and e-mail addresses, and requested that the FBI provide the FSB
with specific information about them, including possible travel by Tsarnaev
to Russia. Importantly, the memorandum included two incorrect dates of
birth (October 21, 1987 or 1988) for Tamerlan Tsarnaev, and the English
translation used by the FBI transliterated their last names as Tsarnayev
and Tsarnayeva, respectively. 6

       On March 9, 2011, the LEGAT in Moscow sent a letter to the FSB
acknowledging receipt of the information and requesting that it keep the FBI
informed of any details it developed on Tamerlan Tsarnaev and Zubeidat
Tsarnaeva. The LEGAT also sent the translated memorandum to the FBI’s
Counterterrorism Division (CTD) and the FBI Boston Field Division with
leads to both components “to take any investigative steps deemed
appropriate and provide [LEGAT] Moscow with any information derived, for
dissemination to the [FSB].” According to available information, the LEGAT
did not coordinate with or notify the CIA in March 2011 after receiving the
lead information concerning Tsarnaev.

       Opening and Conduct of the FBI’s Assessment

      The Boston JTTF subsequently conducted an assessment of Tamerlan
Tsarnaev to determine whether he posed a threat to national security. The
FBI Special Agent (CT Agent) who handled the assessment memorialized the
steps he took in the assessment in an incident report maintained in the
FBI’s Guardian system, which is the FBI’s threat tracking and management
system for counterterrorism assessments.

       The CT Agent conducted database searches, reviewed references to
Tsarnaev and his family in closed FBI counterterrorism cases, performed
“drive-bys” of Tsarnaev’s residence, made an on-site visit to his former
college, and interviewed Tsarnaev and his parents. Based on information
from database searches, the CT Agent determined that Tamerlan Tsarnaev’s
last name was spelled “Tsarnaev,” and that his correct date of birth was
October 21, 1986, information that differed from the lead memorandum
from the FSB. During the assessment, the CT Agent asked a CBP officer on




        6 After reviewing a draft of the report, the FBI commented that there is no standard

transliteration of names from Cyrillic to Roman characters.


                                             8
period. 9 Since the bombings, the FBI has taken steps to encourage greater
access to FBI systems by state and local detailees to JTTFs, as well as to
facilitate the sharing of JTTF information with detailees’ home agencies.

       Closing of the Assessment and Letters to the Russian Government

       The FBI closed the assessment on June 24, 2011, having found no
link or nexus between Tamerlan Tsarnaev and terrorism. The CT Agent’s
supervisor (CT Supervisor) told the DOJ OIG that by indicating in the
Guardian system that the assessment found no nexus to terrorism he
meant that the assessment found no nexus to terrorism from the time the
assessment was opened to the time it was closed. He said that if after he
closed the assessment the FBI received information from a foreign
government suggesting a positive nexus, he would have reopened the
assessment.

       The CT Supervisor told the DOJ OIG that he discussed the
assessment with the CT Agent before the CT Supervisor decided to close it
in order to determine whether any additional steps should be taken. He
stated that he decided to send a letter to the FSB in an effort to obtain
further information about Tsarnaev. In the disposition note in Guardian,
the CT Supervisor stated that the FBI would prepare a letter for the LEGAT
office in Moscow to disseminate to the FSB. The CT Supervisor told the
DOJ OIG that he probably instructed the CT Agent to draft the letter to the
FSB to request additional derogatory information about Tsarnaev because
the information in the original lead information “wasn’t enough.”

       Accordingly, after the closing of the assessment, the LEGAT sent two
letters to the FSB: one dated August 8, 2011, which stated that a review of
FBI databases revealed no derogatory information about Tamerlan Tsarnaev
and erroneously characterized him as a former prosecutor in Kyrgyzstan;
and one dated October 7, 2011, which corrected the earlier error and
provided information about Tamerlan Tsarnaev and Zubeidat Tsarnaeva
developed during the assessment. Both letters requested that the FSB
provide additional information in its possession regarding Tsarnaev. The
DOJ and CIA OIGs determined that the Assistant Legal Attaché coordinated
the August 8, 2011, letter with the CIA and documented this coordination,

       9   During the time period relevant to this review, DHS had detailed intelligence
officers to each of the Massachusetts fusion centers in compliance with the Homeland
Security Act, 6 U.S.C. § 124h(b)(5). The DHS OIG determined that the DHS intelligence
officers at the fusion centers did not receive any documents or other information
concerning Tamerlan Tsarnaev prior to the bombings, either from the FBI or from DHS
personnel on the Boston JTTF. Other than access to the FBI’s e-Guardian database, the
FBI and DHS do not have an MOU or other agreement to provide fusion centers with access
to JTTF information.


                                          10
A CBP review of the officer’s activity indicates that the officer scanned
Tsarnaev’s Alien Registration Card into the computer system used during
primary inspection. The card was valid, and as a result, CBP took
Tsarnaev’s picture, collected his fingerprints, confirmed his identity, and
admitted him into the United States based on his LPR status.

       Significance of Tsarnaev’s Travel

       FBI officials disagreed about the significance of Tsarnaev’s travel to
Russia and whether it should have resulted in further investigative action.
The CT Agent said that the travel would not have been significant because
the assessment was closed and the FBI already had asked the Russians for
additional derogatory information. When asked whether he would have
considered taking further investigative steps had he learned of the travel at
the time, the CT Agent said that he would not have done anything
differently.

      However, other FBI officials stated that the information would have
been important to the FBI. The CT Supervisor told the DOJ OIG that he
was unaware of Tsarnaev’s travel to Russia until after the bombings, and
that he would have expected the CT Agent to tell him in January 2012
about the TECS hit indicating that Tsarnaev was about to travel to Russia. 15
He said that had he known about the travel, he probably would have
reopened the assessment, interviewed Tsarnaev upon his departure from
the United States, informed the LEGAT of the travel so that a determination
could have been made about notifying the Russian government, and worked
with the LEGAT to request information from the Russian government about
Tsarnaev’s activities in Russia. The CT Supervisor also stated that “there is
a very good chance” that the FBI would have interviewed Tsarnaev again
upon his return from Russia had it known about the travel, but that this
would have depended on what was learned from the Russians and from any
secondary inspection during Tsarnaev’s travel.

       Similarly, the Assistant Special Agent in Charge (ASAC) in charge of
the Boston JTTF during the period of the assessment expressed the belief to
the DOJ OIG that if someone had “pinged” the CT Agent about Tsarnaev’s
travel, it would have “changed everything.” 16 She also expressed the belief

        15 The CT Agent said he did not recall having a practice of notifying his supervisor

of travel notifications in closed assessments.
       16  We note, however, that the ASAC told the DOJ OIG that she was not made aware
until after the Boston Marathon bombings of the Tsarnaev lead information or the FBI’s
assessment of Tamerlan Tsarnaev. The ASAC said that an assessment generally did not
reach her attention unless it qualified as a sensitive investigative matter under the AG
Guidelines. The FBI did not designate the Tsarnaev assessment as a sensitive investigative
matter.


                                             15
that he did not recall whether he searched public sources before replying to
this e-mail. 18

       The ISO also contacted the USCIS liaison on the Boston JTTF. The
liaison told the DHS OIG that when he received the ISO’s e-mail, he
conducted database searches and met with the CT Agent. He said that he
and the CT Agent discussed the records from the assessment of Tsarnaev,
including the original information provided by the FSB. The liaison said
that he told the CT Agent that barring any derogatory information from this
case or another source, Tsarnaev likely was eligible for citizenship, and that
he recalled that the CT Agent had no opposition to Tsarnaev’s
naturalization. The CT Agent told the DOJ OIG that it was a “good bet” he
discussed Tsarnaev’s naturalization application with the liaison but did not
have a specific recollection of what they discussed.

       On October 26, 2012, the liaison sent an e-mail to the ISO stating
that there was no current or prior investigation for Tsarnaev, and “there is
no derogatory information related to national security that would adversely
affect the subject’s eligibility for the immigration benefit being sought at this
time.” Tsarnaev’s application then was returned to the queue for normal
processing. USCIS personnel subsequently conducted database searches
for Tamerlan Tsarnaev on multiple separate dates and found no derogatory
records. DHS OIG determined that USCIS personnel did not use all
available aliases when conducting these searches, failing to query for the
term “Tamer Tsarnayev.” However, the DHS OIG concluded that had USCIS
checked this alias, it would not have produced additional information.

      In late November 2012, in response to a USCIS information request,
the FBI conducted a database search and drafted a memorandum stating
that there was no derogatory information about Tsarnaev. On December 3,
2012, the FBI returned additional information results showing Tsarnaev’s
arrest for assault and battery of his former girlfriend in July 2009. USCIS
then requested court records to confirm that the arrest did not result in a
conviction, which it did not receive before the April 15, 2013, bombings.

      A USCIS officer interviewed Tsarnaev on January 23, 2013, but did
not adjudicate his naturalization after the interview because USCIS had not
received the court records relating to his 2009 arrest. As a result,
Tsarnaev’s naturalization application remained pending on April 15, 2013.
The USCIS officer told the DHS OIG that had the court records been



       18 The FBI has no procedures for processing such requests for information about
the subjects of closed investigations or assessments that are submitted to the FBI in
connection with naturalization applications.


                                           17
      Supervisor and CT Agent should have given greater
      consideration to opening an assessment on her. However, given
      that the bulk of the derogatory information in the lead arguably
      focused on Tamerlan Tsarnaev, the DOJ OIG concluded that it
      was within their discretion not to open an assessment on
      Zubeidat Tsarnaeva and instead to conduct limited database
      queries using her name and other relevant identifiers.
  •   The DOJ OIG concluded that additional investigative steps
      would have resulted in a more thorough assessment, including
      conducting additional database searches, asking questions of
      Tamerlan Tsarnaev and his parents to elicit information about
      any plans Tsarnaev may have had to travel to Russia, and
      interviewing Tsarnaev’s former girlfriend and wife. However, the
      DOJ OIG determined that the additional database searches
      would not have revealed any information that was not already
      known to the CT Agent conducting the assessment. In addition,
      the DOJ OIG found that it is impossible to know what the
      former girlfriend and wife would have told the FBI in 2011
      before the Boston Marathon bombings and while Tamerlan
      Tsarnaev was still alive. Therefore, it cannot be known whether
      these additional interviews would have yielded additional
      information relevant to the FSB lead information.
  •   The DOJ OIG found that since the Boston Marathon bombings
      the FBI has taken steps to encourage state and local partners
      on JTTFs to review the Guardian system and share relevant
      threat information with their home agencies. The DOJ OIG
      agrees with the steps the FBI has taken and recommends that
      the FBI take additional steps to share threat information with
      state and local partners more proactively.

Tamerlan Tsarnaev’s Travel to Russia

  •   The DOJ and DHS OIGs found that there is a factual question
      regarding whether the DHS CBP Officer on the Boston JTTF,
      after receiving advance notification of the travel, informed the
      FBI CT Agent who conducted the assessment about Tsarnaev’s
      flight to Russia. The OIGs believe that the CT Agent most likely
      did receive notice of Tsarnaev’s outbound flight but we were
      unable to determine this fact conclusively because there was no
      written confirmation that the CBP Officer had conveyed this
      information to the CT Agent. For the same reason, the DOJ and
      DHS OIGs could not determine conclusively whether the CBP
      Officer informed the CT Agent of Tsarnaev’s return flight from
      Russia.


                              22
Information Sharing and Coordination Between the FBI and CIA

   •   The DOJ and CIA OIGs found that the FBI LEGAT in Moscow
       did not coordinate with the CIA in March 2011, pursuant to the
       Memorandum of Understanding between the FBI and the CIA,
       after receiving the lead information from the FSB concerning
       Tamerlan Tsarnaev. However, we also concluded that the CIA’s
       involvement in March 2011 likely would not have provided the
       FBI with information that could have been helpful to the Boston
       JTTF’s assessment of Tamerlan Tsarnaev.

FTTTF and NCTC’s handling of information about Tsarnaev

   •   The DOJ OIG examined the FTTTF’s handling of the referral of
       Tsarnaev’s record from NCTC, including the FTTTF’s decision
       not to provide information about the fact of the closed FBI
       assessment of Tsarnaev to NCTC. The DOJ OIG determined
       that FTTTF practice at that time did not require the provision of
       information directly to NCTC. Additionally, the DOJ OIG
       concluded that had the fact of the closed assessment been
       shared with NCTC, this information may have led to Tsarnaev’s
       removal from the watchlist.
   •   NCTC had in its possession the CIA’s nomination of Tsarnaev to
       TIDE, the TIDE record derived from that nomination, and travel
       data from DHS regarding Tamerlan “Taarnaev’s” outbound flight
       to Russia in January 2012.
   •   The IC IG determined that Tsarnaev’s nomination to TIDE was
       at a lower priority than those that are ordinarily enhanced. The
       IC IG expects NCTC’s new practice of seeking to enhance all
       U.S. person watchlisted information in TIDE will reduce the
       level of unmatched records for those persons in the future.
   •   On April 3, 2012, NCTC received information from DHS about
       Tsarnaev’s January 21, 2012, outbound travel. The data did
       not correctly identify Tsarnaev as a U.S. person. Based on the
       information received from DHS, NCTC retained the document in
       accordance with procedures. Had the data accurately identified
       Tsarnaev as a lawful permanent resident (a U.S. person), NCTC
       would have been required to delete his travel information within
       180 days unless it was determined to constitute terrorism
       information.

Adjudication of Immigration Benefits for Tamerlan Tsarnaev

   •   DHS OIG examined the INS’s adjudication of immigration
       benefits for the Tsarnaev family members in 2002 and 2003, as
                                24
                well as the USCIS’s adjustment of their status to lawful
                permanent resident (LPR) in 2006 and 2007. The DHS OIG
                concluded that the USCIS granted these benefits in accordance
                with the Immigration and Nationality Act (INA) and agency
                policy and procedures.
            •   DHS OIG examined the USCIS’s adjudication of Tamerlan
                Tsarnaev’s 2012 application for naturalization and concluded
                that, with one exception, the USCIS conducted the
                naturalization processes in accordance with the requirements of
                the INA and the USCIS policies and procedures. 21 The one
                exception was that the USCIS did not check one alias, “Tamer
                Tsarnayev.” However, the DHS OIG determined that had the
                USCIS checked this alias, it would not have found the TECS
                entries derived from Tsarnaev’s watchlist record.
            •   DHS OIG found that the USCIS acted appropriately by
                contacting Boston JTTF members and receiving information
                that Tsarnaev did not pose a national security concern.
                Additionally, the ISO who interviewed Tsarnaev followed USCIS
                processes and policies by delaying adjudication of his
                naturalization application until the court records dismissing
                criminal allegations were obtained.


VII.   RECOMMENDATIONS

       In light of our findings and conclusions summarized above, the
participating OIGs found no basis to make broad recommendations for
changes in information handling or sharing. We nonetheless identified
some areas in which existing policies or practices could be clarified or
improved. Accordingly, we make the following recommendations:

        1.      The DOJ and DHS OIGs recommend that the FBI and DHS
                clarify the circumstances under which JTTF personnel may
                change the display status of a TECS record, particularly in
                closed cases.

        2.      The DOJ OIG recommends that the FBI consider sharing threat
                information with state and local partners more proactively and
                uniformly by establishing a procedure for notifying state and
                local representatives on JTTFs when it conducts a


       21 The DHS OIG also found that the USCIS adhered to statutes, policies, and
procedures when it granted naturalization to Dzhokhar Tsarnaev, Anzor Tsarnaev, and
Zubeidat Tsarnaeva.


                                          25
counterterrorism assessment of a subject residing in or having
a nexus to a representative’s area of responsibility. Such a
procedure would allow state and local representatives to JTTFs
the opportunity to share potentially relevant information with
the FBI.




                        26
           IC IG FORUM
      Unclassified Summary
Of Information Handling and Sharing
     Prior to the April 15, 2013
 BOSTON MARATHON BOMBINGS


MANAGEMENT COMMENTS
